:1"




                        WORKING TOWARD JOBS


                          The Focus   Group Interviews




            i.RVJCE$'




      '0


           1i"d3a


      OFFICE OF INSPECTOR GENERAL
      OFFICE OF EV ALVA TION AND INSPECTIONS
                                                         MAY 1990
OFFICE OF INSPECTOR GENERAL


    The mission of the Offce of Inspector Genera (OIG) is to promote the efficiency,
    effectiveness, and integrty of programs in the United States Deparent of
    Health and Human Services (HS). It does this by developing methods to detect
    and prevent fraud, waste, and abuse. Created by statute in 1976, the Inspector
    General keeps both the Secretar and the Congress fully and currently informed
    about programs or management problems and recommends corrective action.
    The OIG performs its mission by conducting audits, investigations, and
    inspections with approximately 1,400 staf strategically located around the
    countr.



OFFICE OF EVALUATION AND INSPECTIONS


    This repon is produced by the Offce of Evaluation and Inspections (OEI), one of
    thee major offces within the OIG. The other two are the Office of Audit
    Services and the Office of Investigations. Inspections are conducted in
    accordance with professional standards developed by OEI. These inspections are
    typicaly shon-term studies designed to determne program effectiveness,
    efficiency, and vulnerability to fraud or abuse.

    This technical repon was prepared to summarze the focus group interviews with
    the admnistrators of work programs panicipating in the Working Toward JOBS
    project. This technical repon is pan of the Working Toward JOBS project which
    was conducted to describe the operation of a sample of mature , well-regarded and
    comprehensive work programs for AFDC recipients and the insights of the
    administrators of those programs.

    This repon was prepared under the direction of Emilie Baebel , Chief, Public
    Health and Human Services Branch.

                     Suzanne Murrn Project Leader
                     Mar      Beth Clarke,     Program Analyst
                     Susan Schoppa, 
        Program Analyst
                   The Focus   Group Interviews




                         Richard P. Kusserow
                         INSPECTOR GENERAL




OEI-12- 90-00960                                  MAY 1990

                          .    . . .. ..
                          .. . . . . . . .  .... ...
                                         . ..             . . . . . . . . .. .. .... . . . . .... .. .. .. . ... .. ..... .. .. .. .. .. . .....
                                                  . .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .
                                                                                                                   . .. .. .. .. .. .. .. .. ... .. .. . . . ..




         INTRODUCTION


         PARTICIPANTS                                                                                                    ...............4

         EXTRACTS FROM THE FOCUS GROUP INTERVIEWS                                                       .....................6

              Establishing a Work Program
             .................................6

              Provision of Services                                                                                                                 .....7
              Staffing Issues. . .                                                                                                          ........9

              Identifying and Assisting Potential Employers . . . . . . . . . . . . . . . . . . 10

              Coordinating with Other Programs. .

              Encouraging Client Participation/Marketing.
              Strategies for Encouraging Participant Success . . . . . . . . . . . . . . . . 16
              State and County Concerns

              Best Practices/Best Advice
...........................
Focus Groups

        Professor Richard A. Kreger in his book                        Focus Groups: A Practical Guidefor
        Applied Research, states that:

              Focus groups typically have five characteristics or features. These
              characteristics relate to the ingredients of a focus group: (a) people, who (b)
              possess cenain characteristics, (c) provide data (d) of a qualitative nature (e)
              in a focused discussion.

        Typically, these are:

        (a) people, who (b) possess cenain characteristics
              anonymous, users or potential users of a particular product or service, they
              share in common the trait or behavior being studied, 
                 to 10 participants per
              focus group

        (c) provide         data (d) of a qualitative nature

              their attitUdes



        (e) in a focused discussion
              one and a half or two hour moderator faciltated                   session


        In focus groups pancipants are encouraged to interact with each other and to
        question each others attitudes. The interviewer acts as a moderator, keeping the
        group focused on the topic at hand and asking the central questions the group
        discusses, but does not exercise the level of control common to most interview
        techniques. The other key characteristic of focus groups is that they are solely
        for information gathering, not for building consensus or planning action.

        There are many advantages to focus groups. The most imponant of these is that
        focus groups allow researchers to capture the interaction of panicipants.
        Panicipants who share like traits wil be able to question each other and, through
        discussion , reach insights which could not have been gained through other
        interviewing techniques.



        It was for this reason that we decided to use focus group interviews as the
        cornerstone of the Working Toward JOBS project.


Focus Group                                                    INTRODUCTION
Designing the Working Toward JOBS Focus Group Interviews

        We selected eight States and one county which have well-regarded, mature and
        comprehensive work programs. We invited the administrators of those programs
        to attend a three day conference of focus group interviews on their pre- JOBS
        work program for Aid to Families with Dependent Children (AFDC) recipients.

        The topics to be discussed were drawn up from issues which became apparent
        durng preinspection research , site visits, and interviews with Government expens.

        In designing the Working Toward JOBS focus group interviews we chose to
        employ several imponant varations of the typical focus group format. These
        varations are outlined in Table 1.

        Two of the varations were panicularly imponant to our results. By holding a
        series of sessions on related topics with the same panicipants , we were able to
        address a more complex issue than those generally discussed in focus groups.
        The multiple sessions also allowed us to speak with great specificity on the most
        imponant aspects of running an AFC work program.

        In one of our sessions, we asked the parcipating work program administrators to
        select the discussion topics. That session yielded some of the best information
        which came from the conference. By askig the parcipants to name the
        discussion topics we ensured that there were no imponant topics missed and
        gained greater insight into the perspectives of State and local officials on work
        programs.




Focus Group                                INTRODUCTION
                                           Table 1




                                 WORKING TOWARDS JOBS
                                  Focus Group Variations


                 Typical                  Variation                 Purpose of
                                                                        Variation


         Anonymous                 Identified experts      To gather expert

         participants                                      opinion


         Participants selected     Participants selected   To make findings
         for commonalities         for commonaliies and    meaningful for States
                                   variances               in different situations


         No audience or            Visible audience        To keep vitaliy over
         audience behind one                               three day conference
         way mirror
                                                           To allow for immediate
                                                           information flow
                                                           without use of special
                                                           faci I ity



         No audience               Concluding audience     For expert follow-up
         participation             question and answer     on issues discussed
                                   session


         Preselected topics        Allowing interviewees   To insure that all
                                   to select discussion    important topics were
                                                           covered


                                   Topics in one session   To get maximum
                                                           benefit from
                                                           participants ' expertise


Focus Group                             INTRODUCTION
Reporting on the Working Toward JOBS Focus Group Interviews

        The comments recorded at the focus group interviews were incorporated into the
        study findings in two ways. First, the most imponant points were used to form
        the basis of the summar repon, "Working Toward JOBS: An Overview
        (OEI- 12- 89- 01320). This repon also includes information drawn from site visits
        at four of the programs, and a mail survey of each of the programs. In choosing
        the information to highlight in the overview repon, we concentrated on findings
        which represent trends visible in a significant number of the programs studied.
        We also chose to diect most of our attention to issues which the Famly Suppon
        Act leaves to the discretion of the States.

        This technical repon presents materials from the focus group interviews which
        were not included in the overview repon. The format for this repon includes a
        section summarzing each of the focus group discussions. We have organized
        each section around the questions the moderator asked of the panicipants. Under
        the questions are paraphrased quotes from the parcipants which present the
        discussions main points. Wherever possible, these paraphrased quotes have been
        organized by key discussion points. We chose to paraphrase the quotes for the
        sake of brevity.

        The Working Toward JOBS focus group interviews were held August 1- 3, 1989.
        The comments made at the conference were based on pre- JOBS work programs
        for AFDC recipients. As these programs have convened to JOBS, they may have
        made some changes to meet JOBS legal and regulatory requirements.




Focus Group                                INTRODUCTION
Robert Cecil
      The Michigan Opportunities and Skills Training (MOST) Program

        Mr. Cecil is Director of the Bureau of Employment Services in the Michigan
        Deparent of Social Services. He is responsible for the planning, development,
        and implementation of employment suppon services for Aid to Families with
        Dependent Children (AFC) and general assistance recipients.

James Clark
        The Florida Project Independence Program

        Mr. Clark is Director of Project Independence for the Florida Depanment of
        Health and Rehabiltative Services. He directs program development, policy
        formulation , budget development, interdeparental coordination , program
        monitoring, and legislative and Federal coordination.

Cheri Gonyaw
        The Washington Opportunities and Family Independence (FIP) Programs

        Ms. Gonyaw is currently Chief of the Offce of Policy and Program Development
        for the Washington Deparent of Social and Health Services. She is responsible
        for administering PI eligibilty, employment and training activities, and the
        AFC Opponunities employment program.
Margaret Hall
     Nebraska s Job Support

        Ms. Hall serves as a Public Service Administrator for the Nebraska Deparent of
        Social Services in Lincoln , Nebraska. Currently her responsibilties include the
        AFC work program Job Suppon, Emergency Assistance, Refugee Assistace,
        Child Welfare Income Maintenance, and training for income maintenance
        workers.

Richard Jacobsen , Jr.
        The County of San Diego Greater Avenues for Independence (GAIN) Program

        Mr. Jacobsen is currently Director of the County of San Diego s Depanment of
        Social Services. The depanment has a fiduciar responsibilty for more than $1
        billon , employs 3400 staff, and serves one out of every nine San Diego residents.




Focus Group                                 PARTICIPANTS
Kathy Lewis

        California s Greater Avenues/or Independence (GAIN) Program

        Ms. Lewis is Chief of the Employment Progrs Branch in the Calfornia State
        Deparent of Social Services. Her responsibilties -include management of the
        GAIN Program and the Food Stamp Employment and Training Program.

Ronald Newcomb
        The Massachusetts Employment and Training (ET) Program

        Mr. Newcomb is Director of Program Management and Technical Assistance for
        the Massachusetts Employment and Traning (ET) Choices Progrm. He was
        selected by the Welfare Commssioner to be pan of the core group which was
        responsible for planning, stafng and implementing the ET progr.

Rebecca Varella
      The Delaware First Step Program

        Ms. Varella is Chief Administrator of the Employment and Training, Division of
        Social Services in the Delawar Depanment of Health and Social Services. Ms.
        Varella is a former welfare recipient who, in 1986, testified about her experiences
        and recommendations for restrcturig the welfare system before the annual
        meeting of the National Governors ' Association.

Paul Walker
        The Oklahoma Employment and Training Program

        Mr. Waler is the Programs Supervisor for the Employment and Training
        Program of the Oklahoma Depanment of Human Services. He has received the
        Social Security Admnistration Associate Commissioner Citation for his
        leadership in providing technical assistance to other States in the development
        and implementation of work progrs for the disadvantaged.




Focus Group                                 PARTICIPANTS
Establishing A Work Program

What is the most important advice you would give to those establishing a program?

        Assess the level of existing political commitment; establish goals and
        expectations; determine the capabilties and characteristics of the labor market;
        assess communication linkages; use a local planning process; measure results
        through development of a management information system; market the program
        to service providers; and don t re- do what already has been done. (Michigan)

        Gauge the level of political suppon; identify the parameters in terms of laws and
        regulations in which the progrm must operate; develop a cooperative planning
        process; and use the budget creatively. (Washington)


        Understand the law; know the population of the clients to be served; inform all
        the players about the program; continually evaluate the program; establish a
        budget; develop a management information system; and hire a committed staff.
        (Oklahoma)

        Thin through past experiences to know what has and has not worked; set goals
        and objectives; educate the politicians and get their commitment; assess the local
        community and get commitment; and network resources. (Massachusetts)

        Determine the level of the commitment to the program; know the client
        population before the goals and objectives ar established; perform quality
        planning; don t rush to implement the program      understand what services are
        available and how to influence the development of other services; know the
        political players and continually market to them; and dream about the program
        from the client s perspective. (Delaware)

        Look at the present effons and build on existing strengths; understand the
        financial resources that are available; study the laws and regulations; leverage the
        resources of others; involve staff from all levels in the planning process; and look
        at the clients and assess their self- determination. (Nebraska)

        Be conservative in the planning process; consider the impact on providers;
        recognize that planning takes time but is wonh the effon; look at what might not
        work in the program; use a 50 percent rate ofpanicipation , not a 100 percent rate,
        in the planning process; establish a management information system 10 track
        clients in the program; and recognize that it takes time to hire, staff, and orient


Focus Group                                   INTERVIEWS
        people concerning the progr and build these times into the planning process.
        (California)

        Be involved in the progr for the long haul- don t have a shon term
        perspective; market the progr; communicate , cooperate, and coordiate.
        (County of San Diego)




Provision Of Services

What methods are used to provide job skils training?

       An understanding of the specifc goals of the training is needed.

        Job skills trning is expensive; it is necessar to fIrst assess the skils of each
        parcipant in the program, then look at the traiing that is required. (County of
        San Diego)

        Must look at the goals of the client and remember them at all ties. (Delaware)

       Training is provided in a variety of ways.

        The welfare agency should provide the basic foundation; other organizations
        should be used for specifcs.   (Delawar)
        Some training is provided through Job Training Parership Act (JTPA), but
        creamng often is a dominant issue. It s necessar to keep in mind the fact that
        the power constituent groups are different for JTA than for human services.
        Customized traiing also is used with the private sector in which there may be a
        pre-aranged agrement with employers. After a person is trained, he or she then
        wil be hired. Specific contracts are   worked out with employers. (Florida)

        On- the-job training (OJT), funded through JTPA , is the end of the line product.
        Employers want to hire someone who is ready to work and then perform OJT
        themselves. The State work progrs must concentrate on basic skills.
        (Michigan)

        The Job Corps is an effective vehicle for training in the long term. (Oklahoma)




Focus Group                                    INTERVIEWS
What education services would you want to provide?

       Education services are provided in diferent    ways.


        Two basic approaches are used: push concurrently remedial education and
        training, and take the embarassment out of education through greater use of
        computer assisted learning. (County of San Diego)

        Work with the Education Depanment to shonen courses and include basic literacy
        skills. (Florida)



        ITPA agencies and community colleges are used. (Nebraska)

       Greater stress is needed on vocational education parcularly with training in
       English as a second language. Computer assisted learing centers provided by
        ITPA help to reduce the stigma of the classroom. Psychometrc testing has been
        used to determine if there are specific learing disabilities. (County of San
        Diego)

       Education alone wil not meet    the needs of program participants.

        There is a worr that ten years from now the result wil be a more literate welfare
        recipient who stil can t get off the rolls. The varables that cause people to end
        up on public assistance aren t just one factor but many; education is just one
        component. The relationship between literacy and employment is not as       diect as
        it appears. (Florida)

                                                                         Few
        There is a direct relationship between essential literacy and life skils.
        AFC recipients have high school diplomas which are required by most
        employers. (Michigan)

        You must remember that even with improved education and training, about 10
        percent of the population wil remain on welfare. Remember though that the
        more education you have the more you know you don t want your children to
        remain on welfare and the way to do that is for me to get off welfare! (Delaware)



How should services be provided?

        Don t ever underestimate the wilingness of other entities that want to help you.
        We had offers of help, free help, from the most interesting social organizations,
        coalitions, universities, even small businesses. I'm overwhelmed and impressed.
        I think that sometimes we rule people out before we ever give them a chance to
        begin. (Washington)




Focus Group                                   INTERVIEWS
        The issue is not to duplicate what already exists. Only provide in-house services
        as a last reson. Contracting is used to get around the problems of bureaucracy.
        (County of San Diego)

        The objective is to contract for those services that do not already exist. Everyone
        should share in the glory. (Delaware)




Staffing Issues

What advice would you give other States and counties in terms of motivating and
      training staff members?

        Involve direct service staf in the planning process; make them feel that they are
        pan of the team; ensure that they buy in to the program. (Delaware)

        Need a clear diection of goals and standard position descriptions. Establish a
        method to recognize outstanding effons. Communicate continualy about the
        contents of the program. (Oklahoma)

        Make an effon to hire good people. Have a commitment to helping others. Don
        tie people/staf down with regulations and procedures give them as much
        flexibilty as is possible. (Florida)

        Convince the Director of the Deparent or the Governor of the imponance of
        the employment and traiing program. Hold kickoff meetings with the staff
        members. Treat the cause of poveny and not the effect. Foster the attitude that
        the staf members are special. (Delaware)

        Recognize the best practices and shar them. Allow local flexibilty. Determne
        what is desired   quantity versus quality. (California)


        A positive attitude begins at the top. In-service training staff and contractors must
        be supponive. Have a system in place of awards and rewards. (Massachusetts)

        Phase- in new programs as much as possible. Recognize the ongoing nature of
        training. Promote local flexibility. Don t do an enthusiasm overkil.
        (Washington)

        Be aware that staff can make or break a program. Involvement and commitment
        are needed from the top. Parcipation is necessar at all levels. Perform surveys
        of training needs. Share letters from panicipants and best practices. (Nebraska)


Focus Group                                    INTERVIEWS
Identifying And Assisting Potential Employers

How do you identify employers to participate in the program?

       Formal and informal mechanisms are used to identify employers.

        Non- profit organizations ar identified by reading the Yellow Pages. The
        Employment Development Depanment receives job announcements. New
        businesses are identified through contacts with the Small Business Admnistration
        and the U. S. Depanment of Commerce , Economic Development Administration.
        Some cold calls ar made. Prvate industr council (PIC) groups also are another
        source to use. In the County of Sonoma, the program was advenised on all milk
        canons. (County of San Diego)



        A self- diected approach is used. Try to have the clients sell themselves. Invite
        employers to workshops to meet the clients. Network among existing employers.
        (Nebraska)

        In a State with full employment, the emphasis is on developing a client for
        life- long skills. This means that the client must go out as well to find work.
        (Delaware)

        Use a Speakers Bureau to market the program to employers by speakg at the
        Rotar, Elks, Shriner, and other groups. Try to get business people to pledge to
        hire a cenain number of employees. Get actual commitments. (California)

       Look toward a broader level of recruitment. Move away from the one staff
       member finding a job for one person in the program approach. The self-diected
       job search has replaced individuals looking for jobs for others. Use employer
        advisory groups on a State-wide basis. (Washington)

        Encourage a consortum of employers to work together to suppon a common
        training program. This has been effective in training in word processing as well
        as in more specialized aras like the tool and die industr. (County of San Diego)


       The emphasis should be placed on supplying productive employees.

        The employer wants someone who wil make money. Tax credits are of little use.
        Productive employees are the key. Remember that hiring people is an emotional
        process. Often , people get hired through referrals. The job development staf
        members must become known in the community and then refer candidates for
        positions. Don t over market the program      be sur you can deliver. If the
        employees want to work , the employers wil be responsible for training them.
        (Oklahoma)

Focus Group                                   INTERVIEWS
        An Employabilty Skills Development Task Force was established, chaied by
        Lee Iacocca, which prepared a " blue ribbon repon . The task force was set up by
        the Governor of Michigan to alleviate the differences between what the employer
        requires and what the social services person thinks the employer needs. The task
        force found that specific skils training wasn t required. Employers want people
        who are productive and wil perform. It s necessar to     ta with the employer
        community to set goals. (Michigan)

        Recognize that   ta
                          credits arn t a big payback. Supplying productive people is
        the key. (Washington)

          s necessary to understand the needs of the employer.

        Make sure you know the benefits offered by the employer and the specifc
        procedures which are followed in an organization. For example , know that health
        benefits only begin at a cenan time each year. Understand the finances of small
        businesses in terms of tax benefits and tax credits. Realize that tax breaks at
        times only are offered if someone is pan of an " enterprise zone , but that
        sometimes it is possible to say that any person involved with AFC automatically
        is pan of the enterprise zone. Tal with the accountats in large companies as
        well as the personnel diectors.   (Forida)

       Employer recognition is an integral part of the work program.

        Have an annual employer recognition day. Follow-up with the employers and
        fmd out why someone has not worked out. (County of San Diego)

        Bring back clients who have succeeded to a Speakers Bureau of Alumni. Invite
        the employers as well to this forum. Promote success stories. (Massachusetts)

        Recognize employers through parcipation in PICs and      Chambers of Commerce.
        (Delaware)



What methods are used to follow-up once a client is placed?

        Follow-up vares with the client; no set pattern is followed. Employers and
        clients wil telephone if there is a problem; our staf tr not to bother the client on
        the job.   (Washington)

        Work supplementation agreements are monitored. A monthly repon is prepared
        on CWEP. The purpose is to ensure that employer abuse, such as not providing
        training as planned, does not occur. (Oklahoma)



Focus Group                                   INTERVIEWS
       A site visit is made by a neutr case worker after two weeks if the employer
       performs OJT. In CWEP, there is a regular monitoring process with the
       employers. (County of San Diego)



       All services are contracted. Each parcipating employer has a contract with the
       contracting agency. Post placement follow-up is done in a continuous way.
       (Massachusetts)




Coordinating With Other       Programs

What are the key organizations which are involved and how is coordination
      effected?

       Coordination occurs at a variety of levels.

       There have been successes with small projects in a pannership role between
       agencies. For example, with JTPA , there is a smal effon in training pancipation
       underway to prepare persons for work in the insurance and hospital fields. A
       community college was used for the trning. Where there are problems is in the
       global issues and when we tr to do all things for all people. It' s more effective
       to work with smaller projects. Coordination must occur at the local level
        (NebraSka)

       Four major groups are involved: State Job Traiing Coordinating Council , the
       Deparent of Education , Community Colleges, and the Employment
       Development Depanment. At the State level , the groups meet to set policy and to
       solve broad problems. At the county level , plans are reviewed for coordination.
       Each of the four organizations has a GAIN coordinator, and quanerly meetings
       are held. Monthly meetings are held between the County Welfare Associations
       and the GAIN coordinators. (California)

        Interagency agreements are in place with five State agencies and 85 contractors
        are involved on a State-wide basis. The program is dependent on coordination
        with other State agencies and community based organizations. Full cooperation
        is required. The 52 area office directors meet monthly with the service providers
        to resolve issues on a local level. (Massachusetts)

        By meeting regularly with groups at the local level , we find we have more in
        common with others than we originally thought. The JOBS program wil provide
        even greater opponunities for collaboration. (County of San Diego)




Focus Group                                  INTERVIEWS
       Diferent approaches are used in the coordination process.

       Go to their offce; don t ask them to come to you. Review their regulations and
       State plans before you visit. Identify their needs. Don t assume that agencies can
       become alike. Each agency serves different populations and must meet different
       needs. Understad the other agencies ' goals and objectives. Then , realize that
       what you can offer is people. Market people to the agencies. Then tr to

       monitor to see if the other agencies needs were met. Take a systematic approach
         understand the others ' needs first and how you can meet them. (Oklahoma)

       End up with a lead agency but recognize that the lead agency cannot share all the
       glory. You must share a common problem or a common client for 
     uccess, but
       remember that each agency must tend to its own knitting. There are few rewards
       for collaborative successes. Networks are required at the highest levels of the
       organizations involved. (County of San Diego)

       Try to work on the basis of having the same interests. Try to be flexible in your
        needs. Work on neutral ground. Share in successes. (Delaware)

       View the program as a cause around which everyone can rally. Then people wil
       phone you offering to help. At times, barers were perceived, but in actuality,
        they did not exist.   (Washington)

       Government is based on multiple programs with overlapping missions. In private
       industr, this is known as competition. There are different goals, functions, and
       power constituencies. Try to create ambiguous terms to show an ilusion of
       cooperation. It s necessar to see the common points. Some legislation may be
       required to change some of the missions and functions. (Florida)

        Assess the need; tap the expenise; then , pay for it. Look at the duplication that
        exists and review it to see if it can be eliminated. (Massachusetts)



What problems have been encountered in the process?

       Drug and alcohol abuse are signifcant concerns.

        Drug and alcohol abuse are acute concerns. The problem is dealing with them.
        Deferrng people from the GAIN program won t solve the problem. With these
        problems, the persons in GAIN then become " no shows " in the work force.
        Problems must be acknowledged. (California)




Focus Group                                   INTERVIEWS
        We just finished training our staf to identify clients with substance abuse. There
        are few resources available. Must diect substace abuse dollars where they can
        do the most goo. Strategies ar needed to deal with substance abuse. (Florida)

        Collaboration with legislators is helpful to identify what new services and drg
        abuse resources ar required. (County of San Diego)

       The issue is the need to serve the entire family.

          s necessar to recognize you are serving a total family. Addicted babies are a
        problem. Society has not accepted the fact that the family has changed.
        (Washington)

        The larger issue is restrcturng the family. We have not established institutional
        methods to meet famly needs. (Oklahoma)


        Don t wrte off segments of the population. The rehabiltation process may need
        to address the total family. (Delaware)




Encouraging Client Participation/marketing
What methods are used to encourage client participation?

       Marketing efforts begin when the client first enters the welfare offce.

        Stan with the receptionist in the office. Have a shon video in the waiting room
        describing the program. (Delawar)

        The eligibilty worker describes the program and encourges parcipation durng
        the intake process. All the people on the staf are enthusiastic and view the
        program as one of " fun and games . (County of San Diego)

        An applicant friendly process throughout beginning with the first contact is
        needed. Canoons in the waiting rooms are one approach to gain interest in the
        program. The clients need to see that this program is different from others.
        (Washington)

        The orientation sessions must encourage parcipation.    (Michigan)




Focus Group                                   INTERVIEWS
                                                           ,"




       A variety of outreach efforts are used.

        We use public service announcements on radio stations. (Delaware)

        Our program has a nine person marketing division. We use public service
        announcements on radio and television and check insens. We tr to zero- in on
        the childrn. A coloring book for the childrn My Mom and ET' , is available in
        the waiting rooms. (Massachusetts)

        We used legislation. Florida passed a law which mandates that State agencies
        must hire welfare recipients for at least 10 percent of the entr level jobs. Posters,
        check insens, " and specific pitches diected toward children also ar used to
        market the program. A newsletter is prepared of success stories which is widely
        distrbuted. Remember, though , that there stil wil be approximately one- third of
        the client population that you won t reach. (Forida)

        The client grpevine is the best way to market. We also work to get the media to
        use our public service announcements durig prime time. (Washington)

        A successful progr    wil use the client network. The informal network is the
        best. (Oklahoma)

        Seasonal employers must give priority in hirng to AFC       recipients. (California)




What are your sellng points?

        Here is an opponunity to move out of the welfare system to the world of work.
        (Oklahoma)

        We believe you can do it. You have been denied an opponunity. Here is an
        opponunity to show that you can contrbute. (Delaware)


        People need the opponunity to make mistakes; they need to be taught how to take
        control of their lives. Convince people to believe in positive change and
        remember that for a large percentage of the population, change often is too
        negative. (Florida)

        I don t think we should expect any more from welfare clients than we expect
        from ourselves in relation to change. When someone asks us to change, we don
        do it too readily. We circle the fence. Then , thee to six months later, probably if
        we are in the right mood, we might consider makng some movement toward the
        change. I don t think welfar clients ar any different from the rest of us. We
        need to position our program to help them incrementaly to receive enough
        information in their lives so they can process the data and make the necessar

Focus Group                                   INTERVIEWS
        changes. We must be ready to help them move when they desire to move.
        (Oklahoma)

Are there methods and messages that work better for different audiences?

        You must match up your sta ethnicaly with the client population. Try to have
        an Iranian deal with an Iranian. Have someone who was a teen mother to match
        up with teen parnts.  You need the full panoply of the clients you are serving
        available on your staf. (County of San Diego)


        Teen parents require intensive explanation of the program and what it can do for
        them. They need special attention. (Washington)

        Pitches to teenagers need to be diect. They can      t be interpreted as " hokey " or
        demeaning. Be explicit and   dict. (Florida)

Strategies For Encouraging Participant Success

What is meant by success?

       Several diferent measures of success are in use.

        Helping famlies to function more effectively. Provide the abilty to deal       with the
        world and understand where to go for help if something goes wrong.
        (Washington)

        There is one clear point of measure     getting off and remaining off welfare.
        (Florida)

        A goal is to reduce the amount of the grant which is provided. Promote self
        sufficiency. (Michigan)

        Determne what the program costs and how much you have saved. If someone
        does return to welfare, hope it is at a higher functioning level. (County of San
        Diego)

        The legislators wil ask whether or not money       was made. (Oklahoma)

       Realistic performance standards are important.

        There is a quantum leap from welfare dependency to self sufficiency. This may
        not occur for the hard-to-serve. Interim measures of increasing employability
        may be useful. Build a record of interim successes. (Mchigan)


Focus Group                                   INTERVIEWS
        Try to measure success on a national basis. Suppon the use of an eighteen year
        longitudinal study. (County of San Diego)

        Performance standards drve the program; these stadards though may not
        relevant to the client. You need to establish client specific goals and measure the
        movement toward these goals. (Oklahoma)


What elements of the work program are most crucial to helping a client succeed?

       Social policy requires emphasis and interest.

        I question the emphasis on clients. Its too micro-analytic. We need to thin in
        terms of the broader environment to cause an institutional change in terms of
        dealing with the poor. (Florida)



        There is a complex interrlationship in social policy development. You need to
        look at what society requires in terms of full employment. (Mchigan)




State And County Concerns
        The topics discussed in this section were selected by the focus group panel.

What are the major concerns regarding client service delivery?

        Differences in rural aras versus urban areas; experiences in contracting with
        private agencies; and how to defme panicipation. (Nebraska)

        States need to know what is involved. What has worked and why and what is the
        impact. (Oklahoma)



        Review each State concerning the economic conditions. (Delaware)

        Be careful of oversellng the program. Must sell the long-term nature of the
        program. (California)

        Can t make excuses for possible failure. There is a problem of not accepting
        ownership and dumping problems on other agencies. Management training is too
        process oriented in the current system. (Florida)




Focus Group                                  INTERVIEWS
        Employment and training ar initiatives. Other programs are reactive. We must
        be risk- tang. (Michigan)

        Common definition of terms Government-wide, even at the level of a definition
        of welfare and service. The problem is the lack of common reponing and
        evaluation on a State-to- State basis. (Oklahoma)

        Top administrtors must understand the mandates and options of other programs
        and the payment strctures which ar involved. (County of San Diego)

        Cooperation between agencies. (Massachusetts)


What are the key implementation and transition issues?

       Suggestions for program administrators.

        One can have the best progrm design but it' s up to the people to implement the
        program. You must    make it clear what you are really tring to do. You must have
        a positive, global fraework. Credit must be shar with al involved. The goal
        should be to tr to reduce the cost and slow down the rate of increase of clients in
        the program. (County of San Diego)

        The program must be sold at the top. The Governor must be involved and must
        sell the program. The in-service and training people must be brought on board.
        (Massachusetts)

       Suggestions for the Federal Government.

        The Federal Government should provide some strtegies to help States foster
        commitment. A White House conference would help to promote ownership.
        Federal influence is needed to keep the momentum going. The JOBS program , if
          s handled right, wil have signifcant impact on the U. S. (Delaware)

        A national or a series of regional training centers would be useful to help
        implement the program. Hold a White House Conference with a "pep talk" from
        the President. (County of San Diego)

        Provide a checklist or a worklist to the States that describes what they need to do
        to implement the program. Provide information on how to conduct labor market
        surveys. (Oklahoma)

        Provide a facsimile plan format for the States concerning the key external and
        internal issues. (Michigan)



Focus Group                                  INTERVIEWS
       Provide guidance in how to change the existing program to the new program and
       ways to notify clients of the changes and staff members of the administrative
       changes which are required. (California)

       The Federal Government must provide leadership to identify the issues to help
       States reduce duplicity. (Florida)



How do you promote ownership and risk- taking and how do you deal with failure?

       Risk taking requires support.



        It was effective for us to draft a comprehensive piece of legislation. (Forida)

        The Governor and the legislature are commtted to our program. I wonder what
        would happen if other States lacked commitment from the top. (Delaware)

       Define the mission of the program and its principles for operation up front. Then
       decide whom to target and how to allocate funding. Then , get commitment from
        the top. (California)



        Agencies need help in order for them to want to take risks. (Nebraska)

       Expect some failures   and learn from them.

        Be prepared for failure. Some communities won t be able to successfully
        complete the project. Some people won t be able to get through the process.
        (County of San Diego)

        Expect some failures and be able to lear    from them. (Nebraska)


        Someone needs to be able to recognize when something isn t working. You need
        someone to " tell the emperor he needs new clothes. " (Florida)

        Flexibility must be a pan of your program. You need the flexibility to say that
        something isn t working. (Massachusetts)

       Broadcast Success.



        You must address the flp   side.   When something is a success, broadcast it.
        (California)

        Institutionalize the best practices. People then wil   tr to do   the good things to
        get attention. (Oklahoma)


Focus Group                                    INTERVIEWS
       Buy plaques for $40. 00. Have a storage bin of these in HHS and distrbute them
       widely to acknowledge success. (Florida)

       Recognition must occur at all levels      Federal to State; State to local; and local
       to contractors. (Delaware)




What are the key data collection issues?

       Excessive reporting requirements exist.

       There are too many unnecessar reportng requirements. Ask why the data would
       be used at the local level to manage the program before it becomes a requirement.
       (County of San Diego)

       What are the questions which wil    be asked concerning the    performance of the
       program? What data are necessar to manage the program? These are the key
       concerns. Then , recognize that there are different requirements at different levels.
       There are greater needs for more data at the local levels. The local level looks at
       jurisdictions; the States look at the local level; and the National level looks at the
       States. Aggregate data reponing is needed. Look at performance outcomes and
       consider sampling to collect data. (California)

       The States need the flexibility to gather those data needed to manage the program.
       (Florida)

       Common data definitions and data elements are desired.

       Data needs should expand across programs. (Delaware)

       Let people know there are common problems. Have common definitions and
       data elements. (County of San Diego)

       We need common terms with JTPA. Interim data collection systems are not
       realistic. Look at the long term. Don t handle the same data twice. (California)

       A management information system is a necessity.

        Management information is needed. A management information system should
        be drven by outcomes and    outputs. (Florida)

       We are dependent on our MIS. We contract everything out. At the time we award
       a contract, we negotiate the data to be collected. Through this approach , we have
       set up common data definitions. (Massachusetts)

Focus Group                                   INTERVIEWS
        No money is provided for data collection systems for the State and local
        Governments. Few automate income maintenance systems exist in the countr.
        Look at what now is available and tr to standadize. Consider a consortum of
        States sharng available hardware and software. (County of San Diego)



What are the key education issues?

       The education community must be an active participant.

        We need to work together with education. The education community must realize
        that by freeing up dollar in entitlement programs by slowing down the rate of
        growth in these areas, greater discretionar funds wil be made available for their
        programs. (County of San Diego)

        We must deal with education in terms of teen pregnancy issues. (Delaware)

        Our education community is involved and aware of the JOBS initiative. There
        are many clients in common. (Massachusetts)

       Coordination is a time consuming process.

        We need to accept that relationship building is a legitimate activity. Education
        has more problems than just the AFC recipients, and those involved with human
        services must recognize this fact. We must let people know the tie involved
        coordiation and in influencing program parcipation by other agencies.
        (Oklahoma)

        It wil tae time to promote coordination. The Federal Government and the
        Congress need to understand that relationship building taes time. Commtment
        is needed at the top. (Delaware)

        It took us five year to establish a process to coordinate. (Massachusetts)

        We need involvement and commitment at the community level. (Nebraska)




Focus Group                                  INTERVIEWS
Best Practices/Best Advice

What "best advice" would you give to others?

         s critical for the management information system to produce credible statistics.
       You need definitions for grant reductions and welfare savings even with the
       service delivery natue of the program. There also is no substitute for enthusiasm.
       Form core groups and look at the community resources which are available. A
       charsmatic leader can be helpful, but others besides zealots are needed to run the
       program. Assess the resources which are avaiable. (Michigan)

       Involve consumers and advocates up- front in your plan. Keep the. plans simple.
       When the plan is in place, assess the resources to see who can provide what.
       Requests for Proposal (RFP) ar crucial if the State plans to buy everything. The
       RFs must be specifc in term of standards. Put a motivation and evaluation
       system in place early on. This is crcial for quality control. (Massachusetts)

       Look at whether the pancipant spent tie in a program activity and the amount
       of time which was spent without evaluatig the impact of the activity. Try to
       establish some predictors as to what components are the most valuable to the
       people in your program. (Oklahoma)

       The most imponant advice is to make sure goals, missions, and principles are laid
       out. Determne how the client wil flow though the system. Determne the
       relationship with other programs and how to involve afected persons in
       decision-makng. Determne the funding priorities and ways to plan and operate
       the program. (California)

       Take a slow approach. Don t be drven by high numbers; don t oversell. Instead,
       strve to build a good foundation. (Delaware)

       There are thee things to do: (1) Management. Don t confuse the outcome and
       the goals. You need management flexibilty, quality circles, and ownership. This
       should be a focus. (2) Performance standards - information system. You need
       clear and concise outcomes and goals. Look at the relationship of input to output.
       (3) Interagency cooperation through legislative planning. You need a concise
       planning mechanism. (Florida)

       Remember the client. Look at each staf member and determne what he or she
       must do for success. You need top management commitment. Need discretion to
       make decisions to do your job at the local level. Remember that your staff wil
        make or break" you. Cooperate, coordinate, communicate, collaborate,
        compromise, and be ceremonial. Share the credit, both up and down your
        organization and across organizations. (County of San Diego)



Focus Group                                 INTERVIEWS
:"



             A somewhat different approach is needed in a more rura State. We look at the
             program options and are operating with five counties. We strve not to exclude
             people just because they ar in a rual ara in another county. Recognize the
             turover in the labor market and the job movement which exists. Self- directed
             Job Search Workshops are effective and help people expand their horizons and
             their base of operations. You need to remember that the rural areas have fewer
             traditional resources to draw on , such as community colleges. Transponation also
             is a major problem. (Nebraska)




     Focus Group                                 INTERVIEWS
